     REVIEW OF NRC'S IMPLEMENTATION OF
THE FEDERAL MANAGERS' FINANCIAL INTEGRITY ACT
            FOR FISCAL YEAR 1998


          OIG/99A-11   March 3, 1999
                                         March 3, 1999




MEMORANDUM TO:            Chairman Jackson


FROM:                     Hubert T. Bell
                          Inspector General


SUBJECT:                  REVIEW OF NRC'S IMPLEMENTATION OF THE FEDERAL
                          MANAGERS' FINANCIAL INTEGRITY ACT FOR FISCAL YEAR 1998


The Federal Managers' Financial Integrity Act (FMFIA) requires Federal managers to establish a
continuous process for evaluating, improving, and reporting on the internal control and accounting
systems for which they are responsible. The FMFIA requires that each year, the head of each
executive agency subject to the Act shall submit a report to the President and Congress on the
status of management controls and financial systems that protect the integrity of agency programs
and administrative activities. As part of an Office of Management and Budget (OMB) sponsored
pilot program to streamline financial reporting, the Nuclear Regulatory Commission (NRC) issues
its FMFIA report as part of its annual "Accountability Report."

OMB Circular A-123, Revised, "Management Accountability and Control," is the implementing
guidance for FMFIA. The term "internal controls," as envisioned by the FMFIA, is synonymous with
"management controls" and encompasses program and administrative areas, as well as the
accounting and financial management areas.

NRC redesigned and streamlined its management control program in accordance with the National
Performance Review recommendations and OMB’s 1995 revision to OMB Circular A-123. The
redesigned program required offices designated as highest risk (with respect to programmatic and
administrative activities) to submit management control plans and reasonable assurance letters to
NRC's Executive Committee for Management Controls. The Executive Director for Operations is
the Chairman of the Executive Committee.

We are reporting the NRC’s absence of a managerial cost accounting process as a material
weakness. Such a process is required by Statement of Federal Financial Accounting Standards
Number 4, Managerial Cost Accounting Concepts and Standards for the Federal Government,
issued in July 1995. The original effective date was for reporting periods beginning after
September 30, 1996. Because of concerns raised by the Chief Financial Officers Council, the
Federal Accounting Standards Advisory Board amended the effective date to October 1, 1997.

Although we found that NRC has complied with the procedural requirements of the FMFIA during
Fiscal Year (FY) 1998, we disagree with NRC’s determination that the absence of management
cost accounting is not a material weakness. Managerial cost accounting is intended to be an
integral process for managing Government operations, and it is a vital component for implementing
the Government Performance and Results Act.
                                            -2-
FY 1998 was the fourth year of NRC’s revised management control program. Our review of the
first year (FY 1995) not only examined management control plans and reasonable assurance
letters, but also evaluated the implementation of NRC’s process. Over the next two years, we
focused on issues raised by the Office of the Inspector General (OIG) and the offices in their
control plans and reasonable assurance letters. During FY 1998, OIG again examined the
implementation process and issued a report in December 1998.1

Attachment: As stated

cc:    Commissioner Dicus
       Commissioner Diaz
       Commissioner McGaffigan
       Commissioner Merrifield




       1
              OIG Report 98A-08, NRC Should Reconsider The Methodology and Implementation of
              the Management Control Program, December 9, 1998.
                                      Review of NRC's Implementation of the FMFIA for FY 1998




REPORT SYNOPSIS

        Continuing disclosures of Federal waste, loss, unauthorized use, and
        misappropriation of funds or assets associated with weak internal controls and
        accounting systems resulted in the passage of the Federal Managers' Financial
        Integrity Act (FMFIA) in September 1982. The FMFIA requires Federal managers
        to establish a continuous process for evaluating, improving, and reporting on the
        internal controls and accounting systems for which they are responsible.

        In 1995, the Nuclear Regulatory Commission (NRC) redesigned and streamlined
        its management control program in accordance with the National Performance
        Review recommendations and the Office of Management and Budget's 1995
        revision to Circular A-123. The redesigned program required offices designated as
        the highest risk to submit management control plans and reasonable assurance
        letters to an Executive Committee for Management Controls. The Executive
        Director for Operations is Chairman of the Executive Committee.

        To assist NRC in evaluating its management control program, the Office of the
        Inspector General annually reviews NRC's program. We are reporting the NRC’s
        absence of a managerial cost accounting process as a material weakness. Such
        a process is required by Statement of Federal Financial Accounting Standards
        Number 4, Managerial Cost Accounting Standards, issued in July 1995. The
        original effective date was for reporting periods beginning after September 30,
        1996. Because of concerns raised by the Chief Financial Officers Council, the
        Federal Accounting Standards Advisory Board amended the effective date for
        periods beginning after September 30, 1997 (Fiscal Year 1998).

        We found that NRC has complied with the procedural requirements of the FMFIA
        during Fiscal Year 1998. However, we disagree with the Agency’s determination
        that the absence of managerial cost accounting is not a material weakness, and we
        are reporting it as a material weakness. Managerial cost accounting is intended to
        be an integral process for managing Government operations, and it is a vital
        component for implementing the Government Performance and Results Act.




        OIG/99A-11                                                                     Page i
                                                    Review of NRC's Implementation of the FMFIA for FY 1998



TABLE OF CONTENTS


        REPORT SYNOPSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                     BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

        FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

                     THE LACK OF A MANAGERIAL COST ACCOUNTING PROCESS
                      IS A MATERIAL WEAKNESS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


        CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

        RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5



        APPENDICES

                 I             Objectives, Scope, and Methodology

                II             Major Contributors To This Report

               III             Glossary: Office of the Inspector General Products
                                        Review of NRC's Implementation of the FMFIA for FY 1998



INTRODUCTION

         The Federal Managers' Financial Integrity Act (FMFIA) was enacted on
         September 8, 1982, in response to continuing disclosures of waste, loss,
         unauthorized use, and misappropriation of funds or assets associated with weak
         internal controls and accounting systems. Congress felt such abuses hampered the
         effectiveness and accountability of the Federal Government and eroded the public's
         confidence. The FMFIA requires Federal managers to establish a continuous
         process for evaluating, improving, and reporting on the internal controls and
         accounting systems for which they are responsible.

         Office of Management and Budget (OMB) Circular A-123, Revised, "Management
         Accountability and Control," is the implementing guidance for FMFIA. The term
         "internal controls," as envisioned by the FMFIA, is synonymous with "management
         controls" and encompasses program and administrative areas, as well as the
         accounting and financial management areas. OMB defined management controls
         in Circular A-123 as the controls used to ensure that: (1) the organization, policies
         and procedures are reasonable to ensure that programs achieve their intended
         results; (2) resources are used consistent with an agency’s mission; (3) programs
         and resources are protected from waste, fraud, and mismanagement; (4) laws and
         regulations are followed; and, (5) reliable and timely information is obtained,
         maintained, reported and used for decision making.

         See Appendix I for the objective, scope, and methodology of our review.

    BACKGROUND


         The FMFIA requires that each year, the head of each executive agency subject to
         the Act shall submit a report to the President and Congress on the status of
         management controls and financial systems that protect the integrity of agency
         programs and administrative activities.

         In Fiscal Year (FY) 1995, the Nuclear Regulatory Commission (NRC) redesigned
         and streamlined its management control program in accordance with the National
         Performance Review recommendations and the 1995 revision to OMB Circular
         A-123. The redesigned program required offices designated as the highest risk
         (with respect to programmatic and administrative activities) to submit management
         control plans and reasonable assurance letters to the Chairman, Executive
         Committee for Management Controls. The Executive Director for Operations is the
         Chairman of this Committee.




         OIG/99A-11                                                                      Page 1
Review of NRC's Implementation of the FMFIA for FY 1998




               FY 1998 was the fourth year of NRC’s revised management control program. Our
               review of the first year (FY 1995) not only examined management control plans and
               reasonable assurance letters, but also evaluated the implementation of NRC’s
               process. Over the next two years, we focused on issues raised by the offices in
               their control plans and reasonable assurance letters. During FY 1998, the Office
               of the Inspector General (OIG) again examined the implementation process and
               issued a report in December 1998.1 That report made three recommendations to
               strengthen and improve NRC’s management control program.

               NRC is one of six pilot agencies granted permission to streamline financial reporting
               pursuant to the Government Management Reform Act (GMRA). GMRA permits the
               Director of the OMB to consolidate or adjust the frequency and due dates of certain
               statutory financial management reports after consultation with Congress. For
               FY 1995, NRC streamlined its reporting requirements by issuing its first
               "Accountability Report," which included NRC's FMFIA reporting requirements.

               To assist NRC in evaluating its management control program, OIG annually reviews
               NRC's program.

FINDINGS

               Although NRC is not reporting any material weaknesses for FY 1998, OIG has
               identified the absence of a managerial cost accounting process as a material
               weakness. Without such a process, NRC does not comply with Federal accounting
               standards, which require that cost accounting be performed on a regular and
               consistent basis. Further, the Federal Accounting Standards Advisory Board
               (FASAB) stated that “reliable and relevant cost information is indispensable for
               implementing the requirements of the Government Performance and Results Act
               [GPRA].” While NRC is in general compliance with FMFIA, we believe that the
               managerial cost accounting issue is of such significance that it must be classified
               as a material weakness and reported to the President.

               The Lack Of A Managerial Cost Accounting Process Is A Material Weakness

               Statement of Federal Financial Accounting Standards (SFFAS) Number 4 requires
               that NRC and other Federal agencies have a cost accounting process in place for
               FY 1998. By the end of that fiscal year, NRC had no such process in place. NRC
               has delayed implementing a cost accounting methodology and has only recently
               begun a process to develop one. As a result, NRC cannot provide agency-wide
               cost data for its responsibility segments and meet the requirements for GPRA. We


       1
               OIG Report 98A-08, NRC Should Reconsider The Methodology and Implementation of
               the Management Control Program, December 9, 1998.

               OIG/99A-11                                                                     Page 2
                                     Review of NRC's Implementation of the FMFIA for FY 1998


    believe this weakness is material to the Agency as a whole and meets threshold
    for a material weakness as defined in NRC Management Directive 4.4.2

    In July 1993, Congress passed the GPRA, which mandates Federal agencies to
    measure performance.        In September of that year, the Vice President
    recommended an action that required the FASAB to issue a set of cost accounting
    standards for all Federal entities. Those standards were intended to provide a
    method for identifying the unit cost of all Government activities.

    On July 31, 1995, FASAB issued SFFAS Number 4, Managerial Cost Accounting
    Standards. This statement establishes the requirement for cost accounting. It
    states that each reporting entity should accumulate and report the cost of its
    activities on a regular basis for management information purposes. It adds that
    costs may be accumulated by using cost accounting systems or by using cost
    finding techniques. Management should define and establish responsibility
    segments and use managerial cost accounting to measure and report the cost of
    each segment’s outputs.

    SFFAS Number 4 recognizes the need for consistent cost accounting on a regular
    basis. To perform cost accounting on a regular basis means that “entities should
    establish procedures to accumulate and report costs continuously, routinely, and
    consistently for management purposes.” The statement also ties together
    legislative actions designed to demonstrate the need for cost accounting:

            The requirement for managerial cost accounting on a regular and
            consistent basis supports recent legislative actions. The CFO [Chief
            Financial Officers] Act of 1990 states that agency CFOs shall
            provide for the development and reporting of cost information and
            the periodic measurement of performance. In addition, the GPRA
            of 1993 requires each agency, for each program, to establish
            performance indicators and measure or assess relevant outputs,
            service levels, and outcomes of each program as a basis for
            comparing actual results with established goals. The nature of these
            legislative mandates requires reporting entities to develop and report
            cost information on a consistent and regular basis.


2
    NRC Management Directive 4.4 states, “A deficiency that the Chairman determines to
    be significant enough to be reported in the annual Integrity Act report [FMFIA] shall be
    considered a ‘material weakness.’ This designation requires a judgment as to the
    relative risk and significance of the deficiency and whether it merits the attention of the
    Executive Office of the President or the relevant congressional oversight committees.”
    The Directive also states that the Executive Committee for Management Controls
    (ECMC) will make recommendations to the Executive Director for Operations as to
    which “significant weaknesses”are deemed material to the agency as a whole and
    should be considered for inclusion in the annual Integrity Act report to the President and
    Congress.

    OIG/99A-11                                                                           Page 3
Review of NRC's Implementation of the FMFIA for FY 1998


               In July 1997, the FASAB received a request from the CFO Council for a two year
               deferral of the effective date for SFFAS Number 4. The Statement’s original
               implementation date was for FY 1997. The Board considered the request and
               decided to delay implementation for one year, to FY 1998. In denying the CFO
               Council’s request, FASAB stated in part:

                       The Board cannot agree with this request. It believes that cost
                       accounting capability must be developed in time to fully support the
                       GPRA reporting. The Board thus urges Federal entities to give
                       implementation of SFFAS No. 4 a high priority and take immediate
                       actions to define and structure responsibility segments and develop
                       costing methodologies.

               In late 1998, the Office of the Chief Financial Officer (OCFO) began a project to
               bring cost accounting to NRC. OCFO hopes to develop a cost accounting strategy
               during FY 1999. The CFO also advised us that the Agency’s proposed financial
               management system, STARFIRE, will satisfy the reporting requirements for cost
               accounting. However, the core system is not expected to become operational until
               late FY 1999.

               The CFO advised us that for FY 1998 the Executive Council and the Program
               Review Committee3 recognize that the Agency has a significant weakness
               concerning managerial cost accounting. However, they did not refer it to the
               Chairman for consideration as a material weakness.

CONCLUSION

               Since NRC identified the lack of managerial cost accounting as a significant
               Agency weakness, we believe that, overall, the Agency has complied with FMFIA
               requirements. However, OIG disagrees with NRC’s assessment that this is not a
               material weakness. Legislative mandates support the need for cost accounting and
               SFFAS Number 4 and the FASAB’s deferral conclusion stress the high priority and
               management attention that managerial cost accounting deserves. This activity is
               intended to be an agency-wide function to better manage NRC’s resources.

               We do not believe that NRC management gave priority attention to this issue.
               Because NRC has only recently begun to explore potential cost accounting
               methodologies, it was not prepared to implement GPRA costing at the beginning of
               FY 1999, as the FASAB had envisioned. As a result, we believe the lack of a
               managerial cost accounting process is a material weakness that “merits the
               attention of the Executive Office of the President, “ as stated in MD 4.4.



       3
               A recently reconstituted ECMC consists of the Executive Council and the Program
               Review Committee.

               OIG/99A-11                                                                        Page 4
                                      Review of NRC's Implementation of the FMFIA for FY 1998




RECOMMENDATION

       A recommendation addressing the NRC’s need for managerial cost accounting is
       contained in OIG’s report on NRC’s financial statements for FY 1998.4 Therefore,
       we are not making recommendations in this report.




   4
       OIG Report 98A-09, Independent Auditors’Report and the Principal Statements for the
       Year Ended September 30, 1998, dated March 1, 1999.

       OIG/99A-11                                                                      Page 5
                                                                                   Appendix I
                                      Review of NRC's Implementation of the FMFIA for FY 1998



OBJECTIVE, SCOPE, AND METHODOLOGY

        Our objective was to determine whether the U.S. Nuclear Regulatory Commission
        (NRC) complied with the provisions of the Federal Managers' Financial Integrity Act,
        which requires Federal managers to establish a continuous process for evaluating,
        improving, and reporting on the internal controls and accounting systems for which
        they are responsible.

        We conducted our review at NRC headquarters in January 1999. We reviewed
        applicable laws, implementing guidance, and the management control plans and
        reasonable assurance letters submitted by NRC offices for fiscal year 1998. Our
        review included discussions with the Executive Committee staff and other NRC
        officials.

        Our review was conducted in accordance with generally accepted Government
        auditing standards and included such tests of the data and records and other
        auditing procedures as we considered necessary.




        OIG/99A-11                                                                 Page 1 of 1
                                                                         Appendix II
                            Review of NRC's Implementation of the FMFIA for FY 1998



MAJOR CONTRIBUTORS TO THIS REPORT


        Anthony C. Lipuma
        Team Leader

        Camilla Barror
        Auditor




        OIG/99A-11                                                        Page 1 of 1
                                                                                               Appendix III
                                                   Review of NRC's Implementation of the FMFIA for FY 1998



     GLOSSARY: OFFICE OF THE INSPECTOR GENERAL PRODUCTS

             INVESTIGATIVE
1.   INVESTIGATIVE REPORT - WHITE COVER
     An Investigative Report documents pertinent facts of a case and describes available evidence relevant to
     allegations against individuals, including aspects of an allegation not substantiated. Investigative reports
     do not recommend disciplinary action against individual employees. Investigative reports are sensitive
     documents and contain information subject to the Privacy Act restrictions. Reports are given to officials
     and managers who have a need to know in order to properly determine whether administrative action is
     warranted. The agency is expected to advise the OIG within 90 days of receiving the investigative report
     as to what disciplinary or other action has been taken in response to investigative report findings.

2.   EVENT INQUIRY - GREEN COVER
     The Event Inquiry is an investigative product that documents the examination of events or agency actions
     that do not focus specifically on individual misconduct. These reports identify institutional weaknesses that
     led to or allowed a problem to occur. The agency is requested to advise the OIG of managerial initiatives
     taken in response to issues identified in these reports but tracking its recommendations is not required.

3.   MANAGEMENT IMPLICATIONS REPORT (MIR) - MEMORANDUM
     MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate correction of problems and
     to avoid similar issues in the future. Agency tracking of recommendations is not required.


             AUDIT
4.   AUDIT REPORT - BLUE COVER
     An Audit Report is the documentation of the review, recommendations, and findings resulting from an
     objective assessment of a program, function, or activity. Audits follow a defined procedure that allows for
     agency review and comment on draft audit reports. The audit results are also reported in the OIG's
     "Semiannual Report" to the Congress. Tracking of audit report recommendations and agency response
     is required.

5.   SPECIAL EVALUATION REPORT - BURGUNDY COVER
     A Special Evaluation Report documents the results of short-term, limited assessments. It provides an
     initial, quick response to a question or issue, and data to determine whether an in-depth independent audit
     should be planned. Agency tracking of recommendations is not required.


             REGULATORY
6.   REGULATORY COMMENTARY - BROWN COVER
     Regulatory Commentary is the review of existing and proposed legislation, regulations, and policies so as
     to assist the agency in preventing and detecting fraud, waste, and abuse in programs and operations.
     Commentaries cite the IG Act as authority for the review, state the specific law, regulation or policy
     examined, pertinent background information considered and identifies OIG concerns, observations, and
     objections. Significant observations regarding action or inaction by the agency are reported in the OIG
     Semiannual Report to Congress. Each report indicates whether a response is required.



                OIG/99A-11                                                                          Page 1 of 1
